,

JBT-

»

-13
Jl

f

No.

!

IN THE

Supreme Court of tfje fHmtetr States

Supreme Court, U.S.
FILED

FEB 11 2021
LAWRENCE E. NUNLEY.
Petitioner,
v.
RICHARD BROWN,
Respondent.

On Petition for a Writ of Certiorari to the
Seventh Circuit Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Lawrence E. Nunley
#198710
Wabash Valley Correctional Facility
P.O. BOX 1111
Carlisle, IN 47838
Petitioner Pro Se

OFFICE OF THE CLERK

QUESTIONS PRESENTED
I.

During the criminal trial, the prosecutor orchestrated a stunt to have a

child witness write down the most critical portion of her testimony while on
the witness stand. The trial judge, sua sponte, entered the writings into
evidence as the Court’s Exhibits, which were made available to the jury
during deliberations. In doing so, the trial court judge ripped the veil of
neutrality and assumed the role of a prosecutor. Was trial counsel ineffective
for silently acquiescing to the structural error, allowing undue emphasis to be
placed on the critical testimony, and guaranteeing her client’s conviction?

II.

Was appellate counsel ineffective for failing to raise the trial court’s

error in allowing the written testimony and entering it into evidence, thereby
placing undue emphasis on the testimony and assuming the role of a
prosecutor?

i

4

LIST OF PARTIES
All parties appear in the caption of the case on the cover page

%

ii

TABLE OF CONTENTS
Questions Presented

1

List of Parties

11

Table of Authorities

IV

Opinions Below

1

Jurisdiction

1

Constitutional And Statutory Provisions Involved

2

Introduction

4

Statement Of The Case

4

Reasons For Granting The Writ

5

I. Ineffective Assistance of Trial Counsel
A. The Court should accept this case to declare that undue
emphasis should not be placed on one party’s evidence

6

B. The Court should accept this case to declare that trial
court judges cannot rip the veil of neutrality and assume
the role of a prosecutor

11

II. Ineffective Appellate Counsel

17
17

Conclusion
INDEX TO APPENDICES
Exhibit A

Decision of the Seventh Circuit Court of Appeals

Exhibit B

Decision of the United States District Court

Exhibit C

Decision of the Supreme Court of Indiana

Exhibit D

Decision of the Indiana Court of Appeals

Exhibit E

Decision of the trial court, denying post-conviction relief

iii

TABLE OF AUTHORITIES
Cases
Arizona u. Fulminante, 499 U.S. 279, 113 L.Ed.2d 302 (1991)

12

Baver u. Shepard, 620 F.3d 704, 712 (7th cir. 2010)

5

Bracy v. Gramley, 520 U.S. 899, 138 L.Ed.2d 97, 117 S.Ct. 1793 (1997) 12, 14
Bracy v. Schomig, 286 F.3d 406, 414 (7th Cir. 2002) (en banc)

12

Buck v. Davis, 197 U.S. 1, 20 (2017)

16

Edwards v. Balisok, 520 U.S. 641. 137 L.Ed.2d 906 (1997)

12

Franklin v. McCaughtry, 378 F.3d 955, 960-961 (7th Cir. 2005)

12

Gomez v. United States, 490 U.S. 858, 876 (1989)

14

Hoffman v. Arave, 236 F.3d 523, 531 (9th Cir 2001)

11

In re Murchison, 349 U.S. 133, 136, 99 L. Ed 942. 75 S.Ct. 623 (1955)

12, 14

Kennedy v. State, 280 N.E.2d 611, 620-621 (Ind. 1972)

14

McCoy v. Louisiana, 132 S.Ct. 1500 (2018)

14

Reece v. Georgia, 350 U.S.. 85, 88-90 (1955)

11

Starr v. United States, 153 U.S. 614, 39 L.Ed. 841, 14 S.Ct. 919 (1894) 14
Staub v. City of Baxley, 355 U.S. 313, 319-320 (1958)

11

Strickland v. Washington, 466 U.S. 668, 80 L.Ed.2d 674 (1984)

13, 17

Thomas v. State, 259 Ind. 537, 289 N.E.2d 508 (1972)

10

United States v. Hensley, 982 F.3d 1147 (8th Cir. 2020)

8

United States v. Hernandez, 27 F.3d 1403 (9th Cir. 1994)

8

United States v. Richard, 504 F.3d 1109 (9th coir. 2007)

8

iv

United States v. Wilson, 160 F.3d 732 (DC Cir. 1998)

8

Withrow v. Larkin, 421 U.S. 35, 43 L.Ed.2d 712, 95 S.Ct. 1456 (1975)

12

Statutes
28 U.S.C. § 1254

1

28 U.S.C. § 1257

1

Other Authorities
The ABA Model Code of Evidence (1942)

11

Ind. Judicial Canon 3(B)(4)

13-14

v

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Lawrence E. Nunley, respectfully petitions this Court for a writ of
certiorari to review the judgment of the Seventh Circuit Court of Appeals in this
case.
OPINIONS BELOW
The Order of The Seventh Circuit Court of Appeals, denying Nunley's Petition
for a Certificate of Appealability is unpublished and attached hereto as Exhibit A.
The Order of The District Court for the Southern District of Indiana,
dismissing Nunley’s Petition for a Writ of Habeas Corpus is unpublished and
attached hereto as Exhibit B.
The Order of The Supreme Court of Indiana, summarily denying Nunley’s
Petition for Transfer is unpublished and attached hereto as Exhibit C.
The Order of The Indiana Court of Appeals, denying Nunley’s appeal from the
denial of post-conviction relief is unpublished and attached hereto as Exhibit D.
The Order of the trial Court, denying Nunley’s Petition for Post-Conviction
Relief is unpublished and attached hereto as Exhibit E.
JURSIDICTION
The Seventh Circuit Court of Appeals' order denying a certificate of
appealability was issued on November 20, 2020. The District Court's dismissal of
Nunley’s Petition for a Writ of Habeas Corpus was issued on March 30, 2020. The
jurisdiction of this court is invoked under 28 U.S.C. § 1254(1) and 28 U.S.C. §
1257(a).

1

CONSTITUTIONAL PROVISIONS INVOLVED

The Sixth Amendment to the United States Constitution states: “In all
criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.”
The Fourteenth Amendment to the United States Constitution states:
“1. All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal protection of the laws.
2. Representatives shall be apportioned among the several States
according to their respective numbers, counting the whole number of persons
in each State, excluding Indians not taxed. But when the right to vote at any
election for the choice of electors for President and Vice-President of the
United States, Representatives in Congress, the Executive and Judicial
officers of a State, or the members of the Legislature thereof, is denied to any

2

of the male inhabitants of such State, being twenty-one years of age, and
citizens of the United States, or in any way abridged, except for participation
in rebellion, or other crime, the basis of representation therein shall be
reduced in the proportion which the number of such male citizens shall bear
to the whole number of male citizens twenty-one years of age in such State.
3. No person shall be a Senator or Representative in Congress, or
elector of President and Vice-President, or hold any office, civil or military,
under the United States, or under any State, who, having previously taken
an oath, as a member of Congress, or as an officer of the United States, or as
a member of any State legislature, or as an executive or judicial officer of any
State, to support the Constitution of the United States, shall have engaged in
insurrection or rebellion against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of two-thirds of each House,
remove such disability.
4. The validity of the public debt of the United States, authorized by
law, including debts incurred for payment of pensions and bounties for
services in suppressing insurrection or rebellion, shall not be questioned. But
neither the United States nor any State shall assume or pay any debt or
obligation incurred in aid of insurrection or rebellion against the United
States, or any claim for the loss or emancipation of any slave; but all such
debts, obligations and claims shall be held illegal and void.
5. The Congress shall have power to enforce, by appropriate

3

legislation, the provisions of this article.”
INTRODUCTION
This case aligns perfectly with the Court’s criteria for granting review.
The question presented calls into question two diametrically opposed lines of
precedent from this Court. It is nationally important: Without a fair and
impartial judge, public confidence in the judiciary will crumble. Moreover,
this case provides an ideal vehicle to answer the question. Nunley preserved
the issue thoroughly; however, each step ignored the pivotal question,
striking a blow against our principles of fundamental fairness and due
process of law.
STATEMENT OF THE CASE
Lawrence Nunley was tried and convicted of sexual crimes on the basis
of the uncorroborated testimony of a single witness. A.Y. accused Nunley of
licking her “pee-pee” and making her suck on his “weenie-bob.” There is no
medical or forensic evidence, linking Nunley to any wrongdoing. Nunley
vehemently denies the allegations.
During the criminal trial, A.Y. was permitted to write down the most
critical portion of her testimony. (R. 438, 444). This event was staged/planned
by the prosecutor, which was revealed when the child witness asked, “Are we
still going to do the writing deal?” (R. 440). A.Y. proceeded to write the most
critical portion of her testimony — the allegation against Nunley that she
refused to speak. The judge, sua sponte, entered the writings into evidence as

4

the Court’s Exhibits 1 and 2. The Court subsequently reassigned them as
“Joint Exhibits.” The written testimony was subsequently made available to
the jury during deliberations. Trial counsel did not object to the witness being
permitted to write her testimony or its being made available to the jury
during deliberations. No limiting instructions were given or requested.
Nunley filed a petition for post-conviction relief. Trial counsel testified
at the hearing, but did not offer a strategic or tactical reason for her failure to
object. Counsel testified that the written testimony of A.Y. placed undue
emphasis on the testimony and that she had “never seen that happen before.
Before or since.” (PC Vol. II, 30-31). She thought it placed undue emphasis on
the testimony. (PC Vol. II, 30-31). But, she did not offer any strategic or
tactical reason for failing to object or otherwise protect Nunley’s rights.
The post-conviction court denied the petition, and Nunley appealed.
The Court of Appeals denied the appeal. Nunley sought to transfer the case
to the Supreme Court of Indiana. Discretionary review was summarily
denied. Nunley filed a Petition for a Writ of Habeas Corpus, which was
dismissed and a certificate of appealablity (COA) was not issued. Nunley
unsuccessfully sought a COA from the Seventh Circuit Court of Appeals.
REASONS FOR GRANTING THE PETITION
I.

INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL
“The judicial system depends on its reputation for impartiality;
it is public acceptance, rather than the sword or the purse,
that leads decisions to be obeyed and averts vigilantism and
civil strife.” Baver v. Shepard, 620 F.3d 704, 712 (7th cir. 2010).

5

The questions presented in this petition strike at the very heart of the
public’s confidence in the judiciary. At the same time, if this Court does not
intervene, trial judges across the nation can abandon impartiality and inject
themselves into the adversarial process in ways neither contemplated nor
condoned by our Constitution. If this Court believes that our system of
Justice is worth saving, then it has a duty to grant certiorari and issue a
decision that demands the impartiality of this nation’s judicial officers and
fundamental fairness in the trial process.
A. The Court should accept this case to declare that undue
emphasis should not be placed on one party’s evidence
Mr. Nunley alleges that his trial attorney, Susan Schultz, should have
objected to A.Y.’s being permitted to write down a portion of her testimony,
which was then entered into evidence by the Judge, sua sponte, and made
available to the jury during deliberations. A.Y. was capable of testifying and
articulating her story to the jury. She had testified about the incident before.
There was no reason she could not do it during the trial.
The record on this subject is clear. Prior to lunch, A.Y. was permitted
to write a portion of her testimony, even though she had previously answered
the questions. (R. 438, 444). The written testimony was a staged/planned
event. The witness asked, “Are we still gonna do the writing deal?” (R. 440).
The prosecutor had a tablet and crayons, waiting on her request. (R. 440).
Prior to A.Y. writing down her testimony, Ms. Schultz indicated that she had

6

no objection. (R. 440). The Judge entered the writings into evidence, as the
Court’s Exhibits 1 and 2, just before the lunch recess. (R. 444).
Following the lunch break, A.Y. began writing testimony again. (R.
449). The state entered the writings into evidence. (R. 454). The State moved
to formally admit State’s exhibits 3, 4, and 5 and also moved to admit court’s
exhibits 1 and 2. The Court made it clear that 1, 2, and 5 were part of her
testimony and published the documents to the jury. (R. 454-455). These
documents were available to the jury during deliberations as all exhibits are
and were labeled as Joint Exhibits. (PC Vol. II, 31). Ms. Schultz did not
interpose an objection to any of the writings being entered into evidence. (R.
449-455).
Ms. Shultz had no recollection of whether or not she objected, but she
agreed with Mr. Nunley’s proposition that the written testimony placed
undue emphasis on A.Y.’s testimony. In fact, during her post-conviction
testimony, Ms. Schultz testified as follows:
Q.

Okay. Prior to his trial, had you ever seen a witness be
permitted to write down a portion of their testimony?

A.

I don’t - I don’t recall ever having been - having seen
that happen. I know that in some occasions people will
draw diagrams or pictures of what they’re testifying
about, but as afar as actually writing down their
testimony instead of stating it to the jury, I have never
seen that happen before. Before or since.

Q-

Did you find that odd?

A.

Yeah, I think it’s pretty odd. Different anyway.

7

Q.

Do you think that it placed undue emphasis on a portion
of her testimony?

A.

Well, if you think about it from the prospective (sic) that
the jury is allowed to take the exhibits and the Judge
uses that as an exhibit, then I would think that it
perhaps could because what I had seen so many times in
trials is if a jury has a question about something, you
don’t want to replay a witness’s testimony - just one
witness’s testimony and put additional emphasis on that
part of the testimony. So, it would seem to me that if
you’re showing that to the jury, you are putting more
emphasis on that specific piece of testimony that the
witness gave as opposed to everything else that was
admitted during the trial

(PC. Vol. II, 30-31).
Ms. Schultz was absolutely correct: replaying a portion of testimony
can add undue emphasis to the testimony and require reversal. For instance,
in United States v. Richard, 504 F.3d 1109 (9th coir. 2007), the Ninth Circuit
Court of Appeals reversed for this reason. See also, United States v.
Hernandez, 27 F.3d 1403 (9th Cir. 1994).
In United States v. Wilson, 160 F.3d 732 (DC Cir. 1998), the DC Court
of Appeals recognized two “inherent dangers” in sending transcripts to the
jury: 1) the jury may accord undue emphasis to the testimony; and 2) the jury
may apprehend the testimony out of context. Moreover, cases such as United
States v. Hensley, 982 F.3d 1147 (8th Cir. 2020) demonstrate that undue
emphasis should not be placed on one party’s evidence.
Therefore, if Ms. Schultz would have objected, the objection would have
been sustained. We can be certain of this because the trial court had already

8

sustained an objection on the same grounds. The trial record reveals that Ms.
Schultz interposed an objection to the juror’s being allowed to rewatch a video
interview on the grounds that it placed undue emphasis on the importance of
the testimony over other evidence. (R. 615). The then presiding judge
sustained the objection with a lengthy explanation, stating that the law
prohibits the jury from rehearing testimony without a specific request and
then only where there is a dispute about the testimony (R. 616-618). It stands
to reason that the then presiding judge’s comments on this topic indicate that
a properly interposed objection would have been sustained. Thus, trial
counsel’s performance was certainly deficient for failing to do so.
During post-conviction proceedings, Nunley argued:
Unlike the situations permitted in the existing case
authority, permitting A.Y. to write down a portion of her
testimony was significantly more egregious because: (1)
the then presiding judge initiated the written testimony’s
being introduced into evidence, thereby altering the jurors
of its particular importance; (2) it had a theatrical quality
that bolstered the account of how A.Y. initially revealed
the alleged incident to her parents; and (3) the written
testimony was available to the jurors during
deliberations, permitting the jurors to refer to that
portion of the testimony over and over again.
(Habeas Ex. K, 24).
As noted above, the theatrical quality of A.Y.’s being permitted to write
a portion of her testimony bolstered the testimony regarding the way in
which she initially revealed the incident to her parents. According to the trial
record, Tonya and Richard Caves picked up A.Y. from Nunley’s house and,

9

while in the car, A.Y. revealed that she and Nunley had a secret. (R. 436),
477-478, 508, 537). A.Y. would not reveal the secret, but she is alleged to have
written it on an envelope for her parents after Richard Caves helped her
write it. (R. 437, 450-451, 477-478, 479, 480, 508, 538, 558). After confronting
Nunley with a baseball bat (R. 540), Tonya Caves went to the police and is
alleged to have provided A.Y.’s note to the police. (R. 452, 481, 511-512, 626,
636). The envelope was allegedly lost and was not introduced at trial.
A.Y.’s testimony in the courtroom bares a remarkable similarity to the
way in which she is alleged to have revealed the secret to her parents. Thus,
the theatrics serve to highlight the version of the initial reveal, which served
to validate an incident that would have otherwise been viewed with
skepticism. This is especially true when one considers the “loss” of the
envelope, coupled with the fact that A.Y. testified that she told her parents
out loud what happened in the car then stated that she wrote it down with
Richard’s help (R. 450, 479, 480). Richard denied helping her. The jurors
would be more apt to credit the initial reveal because they watched the
planned/staged event of wanting to write the testimony unfold before their
eyes.
Indiana has a prohibition on written testimony, based upon the Model
Rules of Evidence. In Thomas v. State, 259 Ind. 537, 289 N.E.2d 508 (1972)
the Supreme Court of Indiana noted that “[i]n most jurisdictions, depositions
are not permitted in the jury room for the reason that undue influence would

10

most likely be placed on that particular testimony.” Id. at 539. The court
went on to quote the Models Rules of Evidence as follows: “An exhibit
consisting of a writing which contains prior statements of a witness or the
contents of his testimony or similar matter will not usually be sent to the
jury room. To put such a writing where the jury could study it at their leisure
would be to invite them to give undue weight to a portion of the evidence.: Id.,
quoting The ABA Model Code of Evidence (1942), Rule 105, clause (m)
(emphasis added). This issue directly impacted Nunley’s rights under the
United States Constitution to effective counsel, a fair trial, as well as Due
Process of Law and Fundamental Fairness. For the reasons set forth below,
the error of which Nunley complains was significant enough to rise to a
structural error. A state procedural rule is not adequate to bar federal review
if that “state procedural rule frustrates the exercise of a federal right.”
Hoffman v. Arave, 236 F.3d 523, 531 (9th Cir.), cert denied, 534 U.S. 944
(2001); See also Staub v. City of Baxley, 355 U.S. 313, 319-320 (1958); Reece v.
Georgia, 350 U.S.. 85, 88-90 (1955).

B. The Court should accept this case to declare that trial court
judges cannot rip the veil of neutrality and assume the role of a
prosecutor

None of the reviewing courts have taken into account that the written
testimony was highlighted and given greater importance by the fact that the
presiding judicial officer, sua sponte, entered the written pages into evidence,

11

entering them into evidence as the court’s exhibits. This fact mandates a
finding of undue emphasis and structural error since the trial court
undertook the role of a prosecutor to enter evidence against Nunley.
The general principals concerning a defendant’s due process right to an
impartial judge are clear in the jurisprudence of this Court. “[T]he Due
Process Clause clearly requires a fair trial in a fair tribunal before a judge
with no actual bias against the defendant or interest in the outcome of his
particular case.” Bracy v. Gramley, 520 U.S. 899, 904-905, 138 L.Ed.2d 97,
117 S.Ct. 1793 (1997); see also, In re Murchison, 349 U.S. 133, 136, 99 L. Ed
942. 75 S.Ct. 623 (1955). A biased decision-maker is constitutionally
unacceptable. Withrow u. Larkin, 421 U.S. 35, 47, 43 L.Ed.2d 712, 95 S.Ct.
1456 (1975).
Although this right encompasses an absence of actual bias, the
contours of this right cannot be defined with precision. Indeed, this Court has
made it clear that, when the presiding judge is not impartial, there is a
“structural defect[| in the constitution of the trial mechanism” that “defies
analysis by harmless error standards.” Arizona v. Fulminante, 499 U.S. 279,
309, 113 L.Ed.2d 302, 111 S.Ct. 1246 (1991); See also Edwards v. Balisok, 520
U.S. 641. 647. 137 L.Ed.2d 906, 117 S.Ct. 1584 (1997); Franklin v.
McCaughtry, 378 F.3d 955, 960-961 (7th Cir. 2005), citing Bracy v. Schomig,
286 F.3d 406, 414

(7th Cir. 2002) (en banc). Moreover, judicial bias is a

structural defect both when actual and when merely unconstitutionally

12

probable. Arizona v. Fulminante, 499 U.S. at 309-310. If either type of
judicial bias is proven, Strickland prejudice need not be proven. Strickland v.
Washington, 466 U.S. 668, 691-696, 80 L.Ed.2d 674, 164 S.Ct. 2052 (1984).
There is virtually universal acceptance regarding the need for the
judge to be impartial. However, there is a split regarding what exactly needs
to be established to demonstrate judicial bias and what the appropriate
remedy is if the claim is sufficiently established. In Indiana, “A defendant
asserting judicial bias must show that a trial judge’s actions and demeanor
showed partiality and prejudiced the case. Woods v. State, 98 N.E.3d 656
(Ind. Ct. App. 2018). However, the Seventh Circuit has said that “actual bias
is not required, the appearance of bias is sufficient to disqualify a judge.”
Bracy v. Schomig, 286 F.3d at 410-411.
As noted above, this Court has said that judicial bias is a structural
error that defies harmless error analysis. Arizona v. Fulminate, supra.
However, this Court has also said that defendants must show a level of bias
that made “a fair judgment impossible.” Liteky v. United States, 510 U.S. 540,
127 L.Ed.2d 474, 114 S.Ct. 1147 (1994). These inconsistencies need to be
addressed.
Indiana has long recognized that respect for the presiding judge “can
lead jurors to accord great and perhaps decisive significance to the judge’s
every word and intimation. It is therefore essential that the judge refrain
from any actions indicating any position other than impartiality.” Kennedy u.

13

State, 280 N.E.2d 611, 620-621 (Ind. 1972); See also Ind. Judicial Canon
3(B)(4). Similarly, this Court has recognized that the jury may be swayed by
the judge's “lightest word or intimation.” Starr v. United States, 153 U.S. 614,
626, 39 L.Ed. 841, 14 S.Ct. 919 (1894). Furthermore, this Court has
condemned a judge’s taking on the role of a prosecutor acting “as part of the
accusatory process.” In re Murchison, 349 U.S. at 137.
The trial judge abandoned his neutrality when he, sua sponte, entered
evidence against Nunley for the jury to consider. The appearance of the judge
formally entering evidence against a criminal defendant is bias because it
aligns the judge with the prosecution in the eyes of the jury. “A biased
tribunal always deprives an accused of a substantial right,” constituting
structural error. Bracy v. Grumley, supra', Gomez v. United States, 490 U.S.
858, 876 (1989).
In McCoy v. Louisiana, 132 S.Ct. 1500 (2018), this Court reversed a
claim of ineffective assistance of counsel, holding that the Sixth Amendment
guarantees a defendant the right to choose the objective of his defense and to
insist that his counsel refrain from admitting guilt, even when counsel’s
experience-based view is that confessing guilt offers the defendant the best
chance to avoid the death penalty. Notably, this Court deviated from the
normal Strickland analysis, presuming prejudice for the structural error. The
same is true here. The prejudice prong of Strickland should be presumed for
Nunley’s judicial bias issue.

14

This Court must recognize - as it has in the past - that jurors accord
great respect to the judge. This necessarily means that the error was
exacerbated. Nunley faced the undue emphasis that necessarily results by
having the state’s key witness write down the most critical portion of her
testimony and allowing the written testimony to be available to jurors during
deliberations. However, greater emphasis was still placed on this testimony
because it would have been viewed as the “judge’s evidence.” After all, the
jurors saw the judge, without prompting, enter those pages into evidence and
instructed that they be labeled as the “Court’s Exhibits.” (R. 444). This act
had a profound effect on these proceedings and eviscerated the rights
accorded to Nunley by the United States Constitution. The fact that these
exhibits were subsequently reassigning them as

“Joint Exhibits” was not

curative. :
If viewed as the “Court’s Exhibits,” the customary respect for the judge
emphasizes the writings as evidence against Nunley, which was endorsed by
the presiding judge. Moreover, the fact that the state moved to formally enter
the “Court’s Exhibits” into evidence (R. 454-455) sent the jurors the message
that the Judge was aligned with the State and helping with the prosecution
of Nunley thereby negating Nunley’s presumption of innocence.
If viewed as “Joint Exhibits,” the writings become tantamount to a
stipulation in the jurors minds. This is also prejudicial. As this Court has
observed: “When a defendant’s own lawyer puts in the offending evidence, it

15

admit the “Court’s Exhibits.” The reassignment does nothing to diminish the
jurors’ perception that the trial judge is aligned with the prosecution against
Nunley. This error is structural and is in the nature of the type of error that
this Court has historically deemed inherently prejudicial. See Bracey, supra,
Gomez, supra, McCoy, supra, and Strickland, supra.
The written testimony was the only evidence; there was no physical,
forensic, or medical evidence that any crime had occurred. This case was
merely one person accusing another without any substantive, corroborating
proof. Thus, placing emphasis on the writings guaranteed Nunley’s conviction
Counsel was, therefore, ineffective for failing to protect the rights of her
client, and this Court should reverse this conviction.
II. INEFFECTIVE APPELLATE COUNSEL
Nunley also contends that his appellate attorney was ineffective for
failing to raise the issues previously. The arguments in Section I are relevant
to this claim and are incorporated herein by reference.
CONCLUSION
The Petition for a Writ of Certiorari should be granted.
Respectfully submitted,

Lawrence Nunley
#198710
WVCF P.O. BOX 1111
Carlisle, IN 47838
Date:

}0; 2o2,l

17

